              U.S. Department of Energy
              Office of Inspector General




Special Report
Los Alamos National Laboratory's
Purchase Card Program Corrective
Actions




DOE/IG-0644                                 April 2004
REPORT ON LOS ALAMOS NATIONAL LABORATORY'S
PURCHASE CARD PROGRAM CORRECTIVE ACTIONS

TABLE OF
CONTENTS


              Purchase Card Program


              Details of Finding............................................................. 1

              Recommendations and Comments ................................. 5


              Appendix

              Management Comments ................................................. 6
______________________________________________________________________________
Background                       As a result of a series of reviews that began in August 2002,
                                 numerous recommendations were made to strengthen controls over
                                 Los Alamos National Laboratory's purchase card program. One of
                                 these reviews, conducted by an External Review Committee
                                 (Committee),1 chartered by the University of California
                                 (University), examined Laboratory purchase card transactions and
                                 related controls. The Committee's conclusion was that weaknesses
                                 in the program left the Laboratory "vulnerable to fraud and abuse."
                                 The Committee made a series of recommendations designed to
                                 strengthen the program in its report and also provided the
                                 Laboratory with 5 lists containing over 8,400 transactions that
                                 required additional review and disposition. Subsequently, the
                                 Laboratory performed an internal review of the transactions and
                                 made a preliminary determination as to their disposition. This
                                 internal review process was then subjected to an examination by
                                 the University's chief auditor.

                                 In addition, the Laboratory's Associate Director of Administration
                                 issued a memorandum in August 2002 that recognized that
                                 purchase card controls needed to be improved and spending limits
                                 were excessive. Laboratory officials also accepted most of the
                                 recommendations made by various review groups and committed
                                 to take needed corrective action. Prior to initiating our review, the
                                 Laboratory reported that it had taken corrective actions to address
                                 the concerns raised by the prior reviews.

Prior Reviews of the             Based on an examination of the work performed by the
Laboratory's Purchase            Committee, we determined that the review was comprehensive and
Card Program                     could be relied upon. Our conclusion was based on an
                                 examination of the draft report, reviews of the working papers on
                                 which the report was based, and interviews of key members of the
                                 review team that supported the Committee's efforts. With a minor
                                 exception, we arrived at the same conclusions as the Committee.

                                 Our test work also indicated that the Laboratory had adequately
                                 addressed the 8,400 transactions identified by the Committee for
                                 further review. We tested a sample of the items analyzed by the
                                 Laboratory to confirm its assertion that the transactions had been
                                 reconciled to supporting documentation and determined to be
                                 allowable, or were in the process of being reimbursed to the
                                 Department. We arrived at the same conclusion as the Laboratory
                                 for these transactions.



1
 The External Review Committee was comprised of two independent experts, supplemented by forensic accounting
services provided by the public accounting firm of PricewaterhouseCoopers.


Page 1                                                                              Details of Finding
______________________________________________________________________________
Response to Previous    Using automated analytical tools, and with selected testing of
Recommendations         specific transactions, we independently reviewed 60,000 Fiscal
                        Year (FY) 2003 purchase card transactions. We determined that
                        the Laboratory, among other corrective actions, had implemented
                        the improvements described below:

                          • Purchase card transactions were subjected to multiple
                            reviews. The reconciliation process required that an
                            approving official review each transaction and that a group
                            manager approve a monthly "Stewardship Report" detailing
                            all purchase card transactions for that group. The
                            Laboratory's Purchase Card Office also manually scanned all
                            purchase card transactions each month looking for unusual
                            items. Finally, over 100 purchase cardholders were
                            randomly selected every quarter, and the Purchase Card
                            Office reviewed 100 percent of their transactions.

                          • Purchase card transactions were electronically reconciled to
                            supporting documentation, and manual reconciliations were
                            no longer allowed. In addition, the Purchase Card Office
                            issued sanctions to cardholders that had not completed the
                            reconciliations in a timely manner.

                          • Cardholders were no longer allowed to approve their own
                            transactions regardless of their procurement authority.

                          • Inappropriate merchant category codes had been blocked by
                            the servicing financial institution to prevent transactions with
                            certain vendors.

                          • A "business purpose" field was added to the purchase card
                            system and we found that it was accurately populated.

                          • Spending limits were reduced, and approving officials were
                            responsible for fewer purchase cardholders, permitting them
                            to provide additional scrutiny of transactions.

                          • The Laboratory's purchase card training program was
                            updated and provided to all cardholders and approving
                            officials. Training included information on types of items
                            not authorized for purchase, requirements for supporting
                            documentation, and safeguards for purchase cards. We
                            further noted that purchase card privileges had been
                            suspended for cardholders and approvers who failed to attend
                            the training.




Page 2                                                               Details of Finding
______________________________________________________________________________
Remaining Corrective    While we observed that the vast majority of corrective actions had
Actions                 been appropriately addressed by the Laboratory, we noted a few
                        areas in which controls implemented to correct previously reported
                        weaknesses could have benefited from additional action or follow-
                        up. For example:

                          • While both the University and the Laboratory drafted and
                            disseminated purchase card policies, policies for the Purchase
                            Card Office had not been finalized and officially adopted as
                            of the date of our review.

                          • The sanction process for violations had not been consistently
                            implemented. We found that sanctions had not been issued
                            for violations occurring during a three-month period in FY
                            2003. Further, when sanctions were imposed on approving
                            officials for violating purchase card policies, their
                            supervisors were not always notified.

                          • Although information was collected and tracked on violations
                            of purchase card controls, analyses were not performed to
                            identify trends in repeat offenders or categories of violations.

                        Enhancing controls in these areas should compliment safeguards at
                        the Laboratory, improve efficiency, and help ensure that
                        inappropriate purchases are prevented or detected in a timely
                        manner.

Further Opportunities   While progress at the Laboratory was noteworthy, we identified
To Enhance Controls     certain opportunities, not specifically covered by previous
                        recommendations, to further enhance controls over the
                        Laboratory's purchase card program. Specifically, we noted that
                        clarification of restrictions on purchasing certain items, the use of
                        automated transaction review techniques, and strengthening
                        periodic reviews could further reduce the risk associated with the
                        Laboratory's purchase card program.

                                          Use of Unauthorized Items List

                        The Laboratory maintained an "Unauthorized Items List" to help
                        ensure that items management considers to be inappropriate were
                        not acquired with purchase cards. While the list covers a wide
                        range of items, the Laboratory had not delineated the reasons for
                        placing an item on the list or the procedures to be employed when
                        seeking or granting an exception. Based on our review, we
                        concluded that including such clarifications would assist
                        cardholders in determining the propriety of acquisitions. In


Page 3                                                                 Details of Finding
______________________________________________________________________________
                        particular, we determined that such enhancements could help
                        cardholders avoid purchases similar to the 16 questionable
                        transactions identified during our testing. For example, we noted
                        that items such as a mini utility-vehicle, chemicals, food, and
                        certain electronic equipment were acquired even though they
                        appeared on the list of unauthorized items. While Laboratory
                        officials told us that many of the items we identified were based on
                        approved exceptions and had valid business purposes, we noted
                        that the purchases were inconsistent with guidance in effect at the
                        time of the acquisition and evidence of waivers was not provided.


                                          Automated Review Techniques

                        The Laboratory could also increase the effectiveness of its periodic
                        review of purchase card transactions by using automated
                        techniques such as those utilized during our review. The Purchase
                        Card Administrator was required to examine a large volume of
                        transactions using manual methods – a technique that increased the
                        likelihood of overlooking exceptions. In contrast, we used data
                        analysis software to test over 60,000 FY 2003 purchase card
                        transactions. This effort identified 58 transactions that may have
                        been split to avoid purchase card limits that were not noted during
                        the Laboratory's own periodic reviews. Daily or dollar value limits
                        are particularly important because they reduce the risk associated
                        with high value purchases and help to ensure that high volume
                        purchases are based on other, possibly more efficient, negotiated
                        instruments. Of the 20 items we specifically tested, 8 involved
                        multiple transactions that could have been charged as a single
                        transaction. Absent a compelling justification, split purchases are
                        an unacceptable practice.

                        In the particular examples we identified, management
                        acknowledged that a few transactions were split to avoid purchase
                        limits. Laboratory officials told us that they had not previously
                        focused on identifying transactions of this type and agreed that
                        using automated techniques could increase the efficiency of their
                        reviews. The use of such techniques would not only help identify
                        split purchases but have the potential to speed the review for
                        unauthorized items as well. Laboratory officials indicated that
                        they planned to procure an enhanced version of the same data
                        analysis software used during our review.




Page 4                                                               Details of Finding
______________________________________________________________________________
                                           Periodic Review Follow-up

                        Finally, to verify that cardholders are complying with internal
                        guidance, the Laboratory subjects transactions to multiple monthly
                        reviews, with certain individuals randomly selected for more
                        detailed quarterly audits. Monthly reviews are limited to
                        reviewing information describing vendor, item description, and
                        cost. Quarterly audits are more detailed and include the additional
                        step of reviewing supporting documentation. If problems are
                        identified, the Laboratory takes actions such as sanctioning the
                        cardholder, including suspending or canceling purchase card
                        privileges. We noted, however, the only action taken when
                        problems of insufficient documentation were identified during
                        quarterly reviews was to schedule a follow-up audit for the next
                        quarter. The effectiveness of the periodic review program could be
                        improved by requiring that follow-up actions are initiated to
                        remedy or correct problems discovered.


RECOMMENDATIONS         To provide additional assurance that the Laboratory's purchase card
                        program is operating as intended, we recommend that the Los
                        Alamos Site Office Manager direct the Laboratory to:

                          1. Revise existing purchase card policies including
                             clarification of the Unauthorized Items List and finalize and
                             formally adopt policies governing the Purchase Card Office;

                          2. Complete the acquisition of data analysis software and
                             verify that it is being appropriately used to review purchase
                             card transactions;

                          3. Ensure that all violations are accompanied by an appropriate
                             sanction and that supervisors are informed of all violations;

                          4. Require follow-up and resolution of specific transactions
                             identified by internal reviews as unsupported or not in
                             accordance with Laboratory policy; and,

                          5. Revisit corrective or follow-up actions noted in this report
                             requiring additional action, including trend analyses.


MANAGEMENT              Management agreed with the finding and recommendations and indicated
REACTION                that corrective actions were in process or completed. Management's
                        verbatim comments are included in the appendix to this report.




Page 5                                               Recommendations and Comment
Appendix
______________________________________________________________________




Page 6                                         Management Comments
Appendix (continued)
______________________________________________________________________




Page 7                                         Management Comments
Appendix (continued)
______________________________________________________________________




Page 8                                         Management Comments
                                                                    IG Report No. DOE/IG-0644

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
